WAIVER
SUPREME COURT OF THE UNITED STATES
No.

21-5385

Albert M. Kun

State Bar of California, et al.
(Petitioner)

V.

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested by
the Court.
Please check the appropriate box:
I am filing this waiver on behalf of all respondents.
I only represent some respondents. I am filing this waiver on behalf of the following respondent(s):
California Franchise Tax Board

Please check the appropriate box:
I am a member of the Bar of the Supreme Court of the United States. (Filing Instructions: File a
signed Waiver in the Supreme Court Electronic Filing System. The system will prompt you to enter
your appearance first.)
I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a Bar member. (Filing Instructions: Mail the original signed form to: Supreme Court,
Attn: Clerk's Office, 1 First Street, NE, Washington, D.C. 20543).
Signature:

Cara M. Porter

Date:

E9/16/21

Digitally signed by Cara M. Porter
Date: 2021.09.16 11:48:24 -0700'

OA. We'

(Type or print) Name Cara M. Porter
0 Mr.

0 Mrs.

0 Miss

Firm

Office of the Attorney General for the State of California

Address

455 Golden Gate Avenue, Suite 11000

City & State

San Francisco, CA

Phone

(415) 510-3508

Zip - 94102
Email cara.porter@doj.ca.gov

A copy of this form must be sent to petitioner's counsel or to petitioner if pro se. Please indicate below_the _
_ _
name(s) of the recipient(s) of a copy of this form. No additional certificate of service or cover letter is,F,pliliFed7Cti

cc:

Albert M. Kun
517 Green Street
San Francisco, CA 94133

SEP 2 0 2021
I

OFFICE OF T E CLERK
SUPREME CO RT U.S.

